W A I V E R
SUPREME COURT OF THE UNITED STATES
20-1365
In re Arno P. Kuigoua

California Corrections Health Care Services, a Division of the California Department of Corrections and
Rehabilitation.

April 9, 2021
Kenneth C. Jones

California Department of Justice - Office of the Attorney General
300 South Spring Street
Los Angeles
213.269.6451

Berangere Allen-Blaine
The Appellate Law Firm
3680 Wilshire Blvd., Suite P04-1207
Los Angeles, California, 90010

90013

Kenneth.Jones@doj.ca.gov

